APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
SEVIER COUNTY SCHOOLS FEDERAL
CREDIT UNION; SUSANNE MUNSON;
GEOFFREY WOLPERT; CHARLES
MCGAHA; CHARLENE MCGAHA;
ROBIN NICHOLS; GREGORY NICHOLS;
REX NICHOLS; SARAH MORRISON,

No. 20-5174

Plaintiffs-Appellants,
v.
BRANCH BANKING AND TRUST
COMPANY,

Defendant-Appellee.
Appeal from the United States District Court
for the Eastern District of Tennessee at Knoxville.
No. 3:19-cv-00138—Travis Randall McDonough,
District Judge.
Argued: December 2, 2020
Decided and Filed: March 5, 2021
Before: MOORE, GILMAN, and GRIFFIN,
Circuit Judges.

2a
COUNSEL
ARGUED: Gregory Brown, LOWE YEAGER &
BROWN PLLC, Knoxville, Tennessee, for Appellants.
John S. Hicks, BAKER, DONELSON, BEARMAN,
CALDWELL & BERKOWTIZ, P.C., Nashville,
Tennessee, for Appellee.
ON BRIEF: Gregory Brown, Christopher Field, W.
Scott Hickerson, LOWE YEAGER & BROWN PLLC,
Knoxville, Tennessee, Donald K. Vowell, THE
VOWELL LAW FIRM, Knoxville, Tennessee, for
Appellants. John S. Hicks, Christopher E. Thorsen,
BAKER, DONELSON, BEARMAN, CALDWELL &
BERKOWTIZ, P.C., Nashville, Tennessee, Nicholas
W. Diegel, BAKER, DONELSON, BEARMAN,
CALDWELL & BERKOWTIZ, P.C., Knoxville,
Tennessee, for Appellee.
GILMAN, J., delivered the opinion of the court in
which MOORE, J., joined. GRIFFIN, J., delivered a
separate dissenting opinion.

3a
_______________
OPINION
_______________
RONALD LEE GILMAN, Circuit Judge. This is a
putative class action brought by the Sevier County
Schools Federal Credit Union and other account
holders (the Plaintiffs) against the Branch Banking &
Trust Company (BB&T). The Plaintiffs allege that
BB&T failed to honor a commitment made by one of
its predecessors, the First National Bank of
Gatlinburg (FNB), promising that the annual interest
rate on certain high-interest Money Market
Investment Accounts was guaranteed to “never fall
below 6.50%.”
The Plaintiffs might well prevail on the merits of
their dispute with BB&T because, on the surface at
least, the bank is trying to wriggle out of a
commitment made years ago to these Plaintiffs by
FNB. But the issue presently before us is not the
merits of this dispute; instead, we must decide
whether the merits should be resolved by a court or by
an arbitrator. This is because BB&T’s Bank Services
Agreement (BSA) specifies that all disputes between
the parties “shall be determined by arbitration.”
BB&T moved to dismiss the complaint and to
compel arbitration, which the district court granted.
For the reasons set forth below, we REVERSE the
judgment of the district court and REMAND the case
for further proceedings consistent with this opinion.

4a
I.

BACKGROUND

A. Factual background
1. The 6.5% interest-rate guarantee
In 1989, the Plaintiffs opened Money Market
Investment Accounts (MMIAs) with FNB. FNB
guaranteed that the MMIAs’ annual rate of interest
would “never fall below 6.5%.” The original contract
was two pages in length, did not include any provision
limiting an account holder’s right to enforce the
agreement in court, and included the following
change-of-terms provision:
Changes in the terms of this agreement may
be made by the financial institution from
time to time and shall become effective upon
the earlier of (a) the expiration of a thirty-day
period of posting of such changes in the
financial institution, or (b) the making or
delivery of notice thereof to the depositor by
the notice in the depositor’s monthly
statement for one month.
2. Mergers and amendments
In March 1997, FNB merged with BankFirst of
Tennessee (BankFirst). BankFirst continued paying
6.5% annual interest on the MMIAs for the next four
years. In July 2001, BankFirst merged with BB&T.
BB&T was aware of the MMIAs and its obligations to
former MMIA-holders because, three days after the
merger, BB&T converted those accounts to “Money
Rate Savings Accounts” (MRSAs). The conversion
apparently involved nothing more than a change of
name.
Upon acquiring BankFirst in 2001, BB&T claims
that it sent a BSA to each account holder. The 2001

5a
BSA stated that, by continuing to maintain an
account with BB&T, the account holders agreed to the
2001 BSA’s terms.
Among those terms were
provisions that (1) the 2001 BSA could be amended (as
it later was in 2004 and again in 2017), (2)
amendments would be promulgated by written notice
to the account holders, and (3) continued use of an
account after receipt of notice constituted acceptance
of the amendment. The 2001 BSA also included the
following arbitration provision: “You and [BB&T]
each have the option of requiring that any dispute or
controversy concerning your account be decided by
binding arbitration.” This provision would have made
the account holders responsible for half the initial
costs of arbitration, while also allowing an arbitrator
to award “the costs of arbitration or attorneys’ fees as
part of the decision.”
BB&T amended the BSA in 2004. The 2004 BSA,
among other terms, added a class-action waiver and
abolished all “special, incidental, consequential,
punitive or indirect damages, including without
limitation loss of profits.”
In April 2017, BB&T once again amended the
BSA. This amendment (the 2017 Amendment) made
massive changes to the BSA, including an amendment
to the arbitration provision. The provision began as
follows:
IT IS IMPORTANT THAT YOU READ THIS
ARBITRATION PROVISION CAREFULLY.
IT PROVIDES THAT YOU MAY BE
REQUIRED TO SETTLE A CLAIM OR
DISPUTE
THROUGH
ARBITRATION
EVEN IF YOU PREFER TO LITIGATE
SUCH CLAIMS IN COURT. YOU ARE
WAIVING RIGHTS YOU MAY HAVE TO

6a
LITIGATE THE CLAIMS IN A COURT OR
BEFORE A JURY. YOU ARE WAIVING
YOUR RIGHT TO PARTICIPATE IN A
CLASS
ACTION
LAWSUIT,
CLASS
ACTION ARBITRATION, OR OTHER
REPRESENTATIVE
ACTION
WITH
RESPECT TO SUCH CLAIMS.
It continued:
Any dispute, claim, controversy or cause of
action, that is filed in any court and that
arises out of or relates to this Agreement or
the breach, termination, enforcement,
interpretation or validity thereof, including
the determination of the scope of
applicability of this agreement to arbitrate,
shall be determined by arbitration before one
arbitrator at a location mutually agreed upon
in the state where your account is
maintained, or as may be otherwise required
under the JAMS Minimum Consumer
Standards, which is incorporated by
reference herein . . . . If a party elects
arbitration, it may be conducted as an
individual action only. This means that even
if a demand for a class action lawsuit, class
arbitration, or other representative action
(including a private attorney general action)
is filed, the matter will be subject to
individual arbitration. Either party may
bring a summary or expedited motion to
compel arbitration or to stay the applicable
litigation of a dispute in any court. Such
motion may be brought at any time, and the
failure to initiate or request arbitration at
the beginning of litigation shall not be

7a
construed as a waiver of the right to
arbitration.
The reference to “JAMS” in the above paragraph
is directed to the organization formerly known as
Judicial Arbitration Mediation Services, Inc. See Cal.
Comm. Int. Dev. L. & Prac. § 21:120 (2020 ed.). It is
a network of former judges, legal academics, and
professional mediators with a background in
Alternative Dispute Resolution (ADR). Id.
BB&T allegedly sent notice of the 2017
Amendment to each customer. In the notice was the
following reference to the amendment of the
arbitration provision:
“The following paragraph
replaces both the second and third paragraphs of the
ARBITRATION AGREEMENT section of your
[BSA].” Also in the notice was a statement that the
account holders and BB&T were participating in
transactions involving interstate commerce and were
therefore “governed by the provisions of the Federal
Arbitration Act . . . and not by any state law
concerning arbitration.” As with the prior changes,
the 2017 Amendment provided that continued use of
the account after receiving notice constituted
acceptance of the changes. All of the Plaintiffs
maintained their MRSAs following the 2017
Amendment.
3. BB&T decides to lower the interest rate
From its initial acquisition of BankFirst in July
2001 until January 2018, BB&T—like BankFirst—
respected the 6.5% interest rate for the former
MMIAs. In January 2018, however, the Plaintiffs
were notified that the annual percentage rate
applicable to their accounts would soon drop by more
than five percentage points—from 6.5% to 1.05%—in

8a
March 2018. The Plaintiffs were also informed that,
starting in April 2019, the rates would “automatically
adjust to BB&T’s standard balance tiers, as well as to
the current standard variable rate of the interest and
APY [annual percentage yield].” For accounts with
balances of $1,000 and up, these “standard balance
tiers” reflected the industry’s then-current interest
rate—only 0.01% per year.
B. Procedural background
In March 2019, the Plaintiffs filed an action in the
Circuit Court for Sevier County, Tennessee on behalf
of themselves and all other similarly situated persons.
They argued that BB&T is liable for breach of contract
due to its actions in lowering the guaranteed interest
rate. BB&T removed the lawsuit to federal court in a
timely manner. Soon thereafter, the bank filed a
motion to dismiss and to compel arbitration, which the
district court granted.
The district court had
diversity-of-citizenship jurisdiction under 28 U.S.C.
§ 1332. We have appellate jurisdiction pursuant to 28
U.S.C. § 1291.
II. ANALYSIS
A. Standard of review and applicable law
We review de novo both the existence and validity
of an agreement to arbitrate. Walker v. Ryan’s Family
Steak Houses, Inc., 400 F.3d 370, 376 (6th Cir. 2005).
Such review is conducted pursuant to “ordinary statelaw principles that govern the formation of contracts.”
Glazer v. Lehman Bros., Inc., 394 F.3d 444, 450 (6th
Cir. 2005) (holding that the question of whether an
arbitration provision is valid is one of state contract
law). Here, the relevant law is that of Tennessee.
Williams v. Smith, 465 S.W. 3d 150, 153 (Tenn. Ct.
App. 2014) (noting that Tennessee follows the rule of

9a
lex loci contractus, which creates a presumption that
a contract is governed by the law of the jurisdiction
where it was executed); see also Smith v.
Servicemaster, 2009 WL 1457143, at *3 (M.D. Tenn.
May 22, 2009) (“Because arbitration agreements are
fundamentally contracts, the enforceability of a
purported agreement to arbitrate is evaluated
according to the applicable state law of contract
formation.”).
An arbitration agreement may be “voided for the
same reasons for which any contract may be
invalidated under [Tennessee] law.” Hudson v. BAH
Shoney’s Corp., 263 F. Supp. 3d 661, 667 (M.D. Tenn.
2017). Before allowing a case to be arbitrated, a court
must therefore examine whether the contract is valid
under the law of the state where it was executed.
Cooper v. MRM Investment Co., 367 F.3d 493, 499 (6th
Cir. 2004).
The Federal Arbitration Act (FAA) makes this
concept explicit in its so-called “savings clause,” which
provides that a written provision in a contract “to
settle by arbitration a controversy thereafter arising
out of such contract . . . shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.” 9 U.S.C.
§ 2 (emphasis added). So despite “a national policy
favoring arbitration,” Southland Corp. v. Keating, 465
U.S. 1, 10 (1984), an arbitration agreement will not be
enforced if the parties never agreed to arbitrate in the
first place. Capps v. Adams Wholesale Co., Inc., 2015
WL 2445970, at *3 (Tenn. Ct. App. 2015) (affirming
the trial court’s denial of a motion to compel
arbitration because mutual assent was found lacking).

10a
B. Because there was no mutual assent, the
2001 BSA and its subsequent amendments
are invalid to the extent that they
materially changed the terms of the
original agreement
In Tennessee and generally, two essential
elements in the formation of a valid contract are
(1) consideration and (2) mutual assent. Staubach
Retail Servs.-Southeast, LLC v. H.G. Hill Realty Co.,
160 S.W.3d 521, 524 (Tenn. 2005) (A contract “must
result from a meeting of the minds of the parties in
mutual assent to the terms, must be based upon a
sufficient consideration, [must be] free from fraud or
undue influence, [must] not [be] against public policy
and [must be] sufficiently definite to be enforced.”)
(citation omitted). The Plaintiffs argue that both
consideration and mutual assent are lacking with
regard to the arbitration provision. They are wrong
about consideration, but are correct as to the lack of
mutual assent.
1. Consideration
The Plaintiffs’ argument that the BSAs are not
binding because of a lack of consideration regarding
their agreement to arbitrate is unavailing.
“Mutuality of promises is ‘ample’ consideration for a
contract” in Tennessee.
Pyburn v. Bill Heard
Chevrolet, 63 S.W.3d 351, 358 (Tenn. Ct. App. 2001)
(quoting Rodgers v. Southern Newspapers, Inc., 379
S.W.2d 797, 800, (Tenn. 1964)). Both state and federal
courts have consistently found that consideration
exists so long as the arbitration agreement binds both
parties. Id. (“A mutual promise in itself would
constitute a sufficient consideration.”) (citation and
internal quotation marks omitted); Hudson, 263 F.
Supp. 3d at 671 (holding that a mutual promise alone

11a
constituted consideration). Because the arbitration
provision within the 2017 Amendment binds both the
Plaintiffs and BB&T, there is adequate consideration
for the provision.
2. Mutual assent
What is lacking in this case is the Plaintiffs’
consent to the arbitration provision in the BSAs. This
issue is controlled by Tennessee law.
a. The district court’s analysis
A meeting of the minds sufficient to give rise to
mutual assent “is determined by assessing the parties’
manifestations according to an objective standard.”
Wofford v. M.J. Edwards & Sons Funeral Home Inc,
490 S.W.3d 800, 810 (Tenn. Ct. App. 2015) (citations
and internal quotation marks omitted). Whether any
given action “constitutes an acceptance must be
assessed in terms of whether it would lead a
reasonable person to conclude that the offer has been
accepted.” Rode Oil Co. v. Lamar Advert. Co., 2008
WL 4367300, at *8 (Tenn. Ct. App. Sept. 18, 2008)
(citation and internal quotation marks omitted).
Tennessee courts are consistent in holding that, even
though an action as explicit as a signature is not
necessary for mutual assent, mutual assent should
not “be inferred from . . . unilateral acts . . . or by an
ambiguous course of dealing between the parties from
which different inferences regarding the terms of the
contract may be drawn.” Burton v. Warren Farmers
Co-op, 129 S.W.3d 513, 521 (Tenn. Ct. App. 2002).
The issue in this case is whether, after agreeing to
be bound by the initial MMIA agreement, the
Plaintiffs assented to the new terms set out in the
BSAs from BB&T. As the district court noted, if the
Plaintiffs did not explicitly assent to these new terms,

12a
then “the question becomes whether Plaintiffs are
otherwise bound to the [BSA] and its amendments by
virtue of their continued use of the accounts.” Sevier
Cnty. Schs. Fed. Credit Union v. Branch Banking &
Trust Co., 432 F. Supp. 3d 735, 744 (E.D. Tenn. 2020).
In evaluating this question, the district court
agreed with the Plaintiffs that silence or inaction does
not automatically constitute acceptance of an offer;
however, it continued, silence or inaction can
constitute acceptance when the circumstances
“indicate that such an inference of assent is
warranted.” Id. at 744 (quoting Westfall v. Brentwood
Servs. Grp., Inc., 2000 WL 17121659, at *5 (Tenn. Ct.
App. Nov. 17, 2000)). The district court ultimately
agreed with BB&T’s argument that the Plaintiffs did
not merely remain silent here, but took action
sufficient to manifest assent by continuing to
maintain their accounts with BB&T. Id. at 748.
Although the district court found “no Tennessee or
related federal case directly address[ing] the
circumstances at issue” here, id. at 745, it cited
employment and subscription-service cases where
courts have found that continuing with a particular
course of action suggests the existence of mutual
assent as a matter of law, even if not of reality. Id. at
745–48. The district court concluded that the balance
of analogous cases suggested that mutual assent
existed. Id. at 748 (“Although these Tennessee cases
do not directly control the resolution of the case at
issue, they counsel toward finding that Plaintiffs
assented to be bound by the arbitration agreement.”).
In agreeing with the district court’s conclusion,
the dissent cites Seawright v. American General
Financial Services, Inc., 507 F.3d 967 (6th Cir. 2007),
for the proposition that this court has “recognized that

13a
identical conduct in similar contexts constitutes
acceptance under Tennessee law.” (Dissent, p. 17) We
respectfully disagree. Seawright involved an at-will
employee who continued working after her employer
instituted an arbitration provision, as opposed to
BB&T’s contractual obligations in question here. The
context of the Plaintiffs’ circumstances in the present
case, in other words, is far from “identical” to that of
the employee in Seawright.
Even the district court distinguished Seawright as
one of the employment cases that does not directly
address the issue pending before us. See Sevier, 432
F. Supp. at 745. But the district court did find three
factors especially salient. First, the Plaintiffs never
objected, over the course of almost two decades, to the
arbitration provision. Id. at 748. Second, even though
the Plaintiffs never signed any of the agreements or
otherwise assented in writing, the BSAs explicitly
stated that continuing to hold accounts with BB&T
would function as an acceptance of their terms. Id.
The final factor the court noted was that “individuals
and organizations who maintain accounts at banks
would reasonably expect their relationship with the
bank to be governed by some sort of agreement.” Id.
There are several problems with the district
court’s analysis. First, the record is unclear as to
whether the correct procedure was followed. See id.
at 744 (acknowledging that “[f]rom the Court’s own
review of the record, it remains unclear whether these
documents were distributed in a manner consistent
with the MMIA Agreement”). As for the second
point—the BSAs’ language that merely maintaining
the accounts was deemed acceptance—this court
addressed the issue in Lee v. Red Lobster Inns of
America, Inc., 92 F. App’x 158 (6th Cir. 2004),

14a
reasoning that “[t]he flaw in the district court’s
analysis is that it places the burden on the
[consumers] to . . . object to a company’s unilaterally
adopted arbitration policy or risk being found to have
agreed to it. This is not how contracts are formed.”
Id. at 162. “The mere receipt of an unsolicited offer
does not impair the offeree’s freedom of action or
inaction or impose on him any duty to speak.” Id.
(quoting Restatement (Second) of Contracts § 69, cmt.
a (1981)).
Third, whether “individuals and organizations
who maintain accounts at banks would reasonably
expect their relationship with the bank to be governed
by some sort of agreement,” Sevier, 432 F. Supp. 3d at
748, is not material. The proper question is whether,
upon assenting to the original two-page MMIA
agreement, such individuals and organizations would
reasonably expect their relationship to be governed—
more than a decade later—by new provisions
unilaterally added by a successor bank to such an
extent that the BSA ultimately contained terms that
materially changed the Plaintiffs’ rights and
obligations under the original agreement.
See
Johnson v. Welch, 2004 WL 239756, at *8 (Tenn. Ct.
App. 2004) (noting that “in construing contracts,
courts must look at the language and the parties’
intent and impose a construction that is fair and
reasonable,” and that “[r]easonableness must be
viewed in light of the parties’ situation at the time of
the making of the agreement as well as at the time
performance becomes due”) (emphasis added).
This exposes the major flaw in the district court’s
analysis—its failure to address whether the BSAs are
invalid by virtue of exceeding the scope of the original
change-of-terms provision. BB&T relies on this

15a
provision in the original two-page MMIA agreement
between FNB and the Plaintiffs to impose new terms
contained in an agreement that ultimately stretched
to 33 pages. When a party makes a unilateral change
of this magnitude, and especially where that party has
vastly greater bargaining power, a court should
carefully examine whether the proposed changes are
(1) reasonable, and (2) not in violation of the implied
covenant of good faith and fair dealing. See Hathaway
v. Hathaway, 98 S.W.3d 675, 678-79 (Tenn. Ct. App.
2002) (“[A] qualifying word which must be read into
every contract is the word ‘reasonable’ or its
equivalent ‘reasonably.’”) (quoting Minor v. Minor,
863 S.W.2d 51, 54 (Tenn. Ct. App. 1993)); Wallace v.
Nat’l Bank of Commerce, 938 S.W.2d 684, 686 (Tenn.
1996) (“[T]here is implied in every contract a duty of
good faith and fair dealing in its performance and
enforcement . . . .”) (citation omitted).
The BSAs in question are clearly contracts of
adhesion. See Buraczynski v. Eyring, 919 S.W.2d 314,
320 (Tenn. 1996) (defining a contract of adhesion as “a
standardized contract form offered to consumers of
goods and services on essentially a ‘take it or leave it
basis’” that affords the consumer with no “realistic
opportunity to bargain” and, critically, where the
consumer “cannot obtain the desired product or
service except by acquiescing to the form of the
contract”) (citations omitted). This conclusion is
bolstered by the fact that other courts analyzing
BB&T’s BSAs have concluded that they were
contracts of adhesion. See, e.g., In re Checking
Account Overdraft Litig. MDL No. 2036, 685 F.3d
1269, 1280 n.13 (11th Cir. 2012) (finding that BB&T’s
BSA was a contract of adhesion under South Carolina
law).

16a
The change-of-terms provision in the original
MMIA agreement stated that “[c]hanges in the terms
of this agreement may be made by the financial
institution from time to time” so long as they were
posted in the institution or mailed in a monthly
statement. Armed with this simple provision, BB&T
argues that even fundamental changes to the original
contract are valid, regardless of their magnitude or
character. The district court implicitly accepted this
argument by concluding that the 2001 BSA and its
later amendments in 2004 and 2017 were valid
despite the expansion of the original 2-page document
into a BSA 33 pages in length.
In its analysis, however, the district court failed
to meaningfully consider the Plaintiffs’ argument that
BB&T’s addition of the arbitration provision as part
of this expansion was inconsistent with the substance
of the original change-of-terms provision. Its total
analysis on this point consisted of a two-sentence
footnote that failed to cite to any authority. See
Sevier, 432 F. Supp. 3d at 744 n. 4 (“Plaintiffs also
contend that the addition of an arbitration agreement
was not contemplated by the language of the MMIA
Agreement. However, because the Court finds that
BB&T did not follow the procedures for effectuating
an amendment to the MMIA Agreement, it need not
consider the substantive reasonableness of the
change.”) (citation omitted).
The Plaintiffs in their briefing do not contest “that
[BB&T] could make reasonable changes to the
banking agreement pursuant to [the MMIA’s changeof-terms] provision.” (Emphasis in original.) They
instead properly assert that BB&T’s discretion under
the original change-of-terms provision to amend the
terms is not unlimited, but is subject to two

17a
requirements: (1) that any changes be reasonable,
and (2) that BB&T exercise its discretion to make such
changes in a manner consistent with the implied
covenant of good faith and fair dealing.
b. The reasonableness requirement
Per the reasonableness requirement, the
Plaintiffs argue that any changes must be limited to
changing terms that were included in the original
agreement. And because the original agreement with
FNB made no mention of dispute resolution, much
less of limiting the Plaintiffs’ right to go to court, they
contend that BB&T cannot force the Plaintiffs to
arbitrate. The Plaintiffs principally rely on Badie v.
Bank of America, 67 Cal. App. 4th 779 (Cal. Ct. App.
1998), a seminal case on this point with facts
materially indistinguishable from those present here,
in support of their argument.
In Badie, the California Court of Appeal found
that a similar change-in-terms provision did not give
the bank the right to unilaterally add an arbitration
provision to the account holder’s original agreement.
The court noted that, as here, the proposed change
was attempted via notice, and that “the method and
forum for dispute resolution—a matter . . . collateral
to that relationship—is not discussed at all” in the
original agreement. Id. at 800. Moreover, the court
concluded that “there [was] nothing about the original
terms that would have alerted a customer to the
possibility that the Bank might one day in the future
invoke the change of terms provision to add a clause
that would allow it to impose ADR on the customer.”
Id. at 801 (emphasis in original).
The Badie court explained that a bank does not
have a unilateral right “carte blanche to make any

18a
kind of change whatsoever so long as a specific
procedure is followed.” Id. at 791. The change must
instead be “a modification whose general subject
matter was anticipated when the contract was
entered into.” Id. As a result, the court said that it
could not “assume . . . that notice alone, without some
affirmative evidence of the depositor’s consent, could
bind a depositor to a significant change regarding
matters that were not addressed in the original
contract at all.” Id. at 793. Badie’s logic is even more
applicable here, where the record is unclear as to
whether BB&T made the changes to the BSAs in a
manner consistent with the original change-of-terms
provision, or if the Plaintiffs even received the 2001
BSA or its 2004 and 2017 amendments. See Sevier,
432 F. Supp. 3d at 744.
BB&T’s argument that we should disregard Badie
is unpersuasive because the bank relies on a false
premise—that Badie is “unorthodox and rarely
followed by other states.” To the contrary, other
courts confronting circumstances analogous to those
here—an attempt by the dominant party to
unilaterally and materially diminish its customers’
rights under a contract of adhesion through a changeof-terms provision—have declined to apply Badie only
when the customers had a “meaningful opportunity”
to opt out of the arbitration provision. See, e.g., Valle
v. ATM Nat., LLC, 2015 WL 413449, at *4 (S.D.N.Y.
Jan. 30, 2015) (noting that the “primary concern of
Badie and related cases in springing unexpected
terms on the consumer” is alleviated where consumers
have “ample opportunity” to opt out of arbitration);
Howard v. Ferrellgas Partners, L.P., 92 F. Supp. 3d
1115, 1138 (D. Kan. 2015) (applying Kansas law, and
approvingly
referencing
Valle’s
“meaningful

19a
opportunity to opt out” requirement) (internal
quotation marks omitted).
Still other courts, moreover, have applied Badie
even where the plaintiffs could opt out of the new
arbitration provision. See, e.g., Follman v. World Fin.
Network Nat’l Bank, 721 F. Supp. 2d 158, 165
(E.D.N.Y. 2010) (interpreting Ohio law in declining to
enforce an added arbitration provision despite the
inclusion of an opt-out clause); Stone v. Golden Wexler
& Sarnese, P.C., 341 F. Supp. 2d 189, 198 (E.D.N.Y.
2004) (interpreting Virginia law to find an arbitration
provision unenforceable, and noting that several
“courts have followed the Badie reasoning even when
[the original agreement] allowed additions and [the
consumers] were given an opportunity to opt out from
the proposed arbitration clause”).
Based on the circumstances in the case before us,
we are persuaded that the Tennessee Supreme Court
would follow the logic of Badie. The first reason that
it would do so is because BB&T provided the Plaintiffs
with no opt-out opportunity. This left the Plaintiffs
with no choice other than to acquiesce to the new
arbitration provision or to close their high-yield
savings accounts. And closing their accounts is a
totally unreasonable option because doing so would
obviate the very essence of the Plaintiffs’ accounts—
the promise of a perpetual 6.5% annual interest rate.
We can take judicial notice that nowhere near
such a rate is currently available anywhere else. See
Investopedia, “Best High-Yield Savings Accounts”
(March 4, 2021), https://www.investopedia.com/besthigh-yield-savings-accounts-4770633 (listing the best
high-yield savings account rates available, all of
which show banks advertising rates of less than
1.00%); Fed. R. Evid. 201(b)(1) & (2) (“The court may

20a
judicially notice a fact that is not subject to reasonable
dispute . . . .”).
c. The implied covenant of good faith
and fair dealing
This leads to the second reason why we are
persuaded that the Tennessee Supreme Court would
follow the logic of Badie; i.e., that the purported
imposition of the arbitration provision would violate
the common law’s implied covenant of good faith and
fair dealing. BB&T did not act reasonably when it
added the arbitration provision years after the
Plaintiffs’ accounts were established by FNB, thus
violating the implied covenant of good faith and fair
dealing in its attempt to use the original change-ofterms provision to force the Plaintiffs to arbitrate.
The following analysis in Badie is especially
pertinent in applying the implied covenant to the facts
here:
Where, as in this case, a party has the
unilateral right to change the terms of a
contract, it does not act in an “objectively
reasonable” manner when it attempts to
“recapture” a foregone opportunity by adding
an entirely new term which has no bearing
on any subject . . . in the original contract and
which was not within the reasonable
contemplation of the parties when the
contract was entered into.
That is
particularly true where the new term deprives
the other party of the right to a jury trial and
the right to select a judicial forum for dispute
resolution.
Badie, 67 Cal. App. 4th at 796 (emphasis added)
(internal citation omitted). We have every reason to

21a
believe that the Tennessee Supreme Court would fully
concur in this analysis.
One final point: the dissent’s contrary conclusion
is primarily based on its assertion that the Plaintiffs’
inaction by continuing to maintain their accounts
should be deemed an acceptance of BB&T’s
unilaterally imposed arbitration provision.
This
assertion, however, is not only inconsistent with
Tennessee law, see Johnson v. Welch, 2004 WL
239756, at *8 (Tenn. Ct. App. 2004), but is completely
neutralized by BB&T’s own inaction for sixteen and a
half years. For this long period of time (between July
2001 and January 2018), BB&T continued to honor
the 6.5% interest-rate guarantee. The Plaintiffs were
thus lulled into not giving a thought to the unilateral
addition of the arbitration provision in the BSA. Why,
after all, would they have any reason to believe that
BB&T might someday attempt to end a guarantee
that had been honored by BB&T ever since it first
acquired the accounts in 2001? This is a classic case of
the pot calling the kettle black, and is the antithesis
of good faith and fair dealing.
III. CONCLUSION
For all of the reasons set forth above, we
REVERSE the district court’s grant of BB&T’s
motion to dismiss and compel arbitration, and
REMAND the case for further proceedings consistent
with this opinion.

22a
_______________
DISSENT
_______________
GRIFFIN, Circuit Judge, dissenting.
Because plaintiffs assented to this arbitration
agreement, and because it is neither adhesive nor
unconscionable, I respectfully dissent. I would affirm
the district court’s judgment.
I.
First, plaintiffs agreed to arbitrate these claims.
In Tennessee, assent does not need to be explicit and
may instead be “manifested, in whole or in part, by
the parties’ . . . actions or inactions.” Burton v.
Warren Farmers Co-op, 129 S.W.3d 513, 521 (Tenn.
Ct. App. 2002).
Action or inaction constitutes
acceptance if it “would lead a reasonable person to
conclude that the offer has been accepted.” AquaChem, Inc. v. D & H Mach. Serv., Inc., No. E201501818-COA-R3-CV, 2016 WL 6078566, at *4 (Tenn.
Ct. App. Oct. 17, 2016) (quotation omitted). Although
assent may not “be inferred from the unilateral acts of
one party or by an ambiguous course of dealing
between the parties,” Burton, 129 S.W.3d at 521,
“[a]cting in a matter that indicates acceptance of a
contract is generally deemed to be acceptance.” AquaChem, 2016 WL 6078566, at *4 (citation omitted).
Here, it is undisputed that when Branch Banking
acquired BankFirst in 2001, it provided each plaintiff
with a welcome letter that included a copy of the bank
services agreement that would govern their accounts

23a
from that point forward.1 This agreement included an
arbitration clause and stated that “when you . . .
maintain a deposit account with the Bank, you are
agreeing to the terms of this Bank Services
Agreement,” which could be “amended from time to
time by the Bank,” and that continued use of the
account following notice of an amendment constituted
acceptance of that amendment. In April 2017, Branch
Banking amended the agreement to include the
arbitration clause that applies to the parties’ current
dispute.
The 2017 amendment reiterated that
“[c]ontinued use of your account following a notice
constitutes your acceptance of our changes.”
Plaintiffs never objected to any agreement or

1

Branch Banking offered an affidavit of one of its Vice
Presidents to substantiate the steps it took to inform its new
customers of the bank services agreement and subsequent
amendments. Although plaintiffs challenge the admissibility of
this affidavit, they offer no proof of their own to contradict its
substance, nor do they allege that they did not receive the bank
services agreement or any amendment. The district court
considered, and rejected, the same admissibility arguments that
plaintiffs raise on appeal. Sevier Cty. Schs. Fed. Credit Union v.
Branch Banking & Tr., Co., 432 F. Supp. 3d 735, 739 n.1 (E.D.
Tenn. 2020). I see no abuse of discretion on the admissibility of
this affidavit. See General Elec. Co. v. Joiner, 522 U.S. 136, 141
(1997). And because there is no dispute of fact, it was
appropriate for the district court to decide the question of
contract formation as a matter of law. See Granite Rock Co. v.
Int’l Bhd. of Teamsters, 561 U.S. 287, 296 (2010) (issues that
concern contract formation are “generally for courts to decide.”)
The district court also appropriately limited its analysis to
whether a valid agreement had been formed, and left questions
of arbitrability for the arbitrator, as provided for in the
agreement. See Henry Schein, Inc. v. Archer & White Sales, Inc.,
139 S. Ct. 524, 530 (2019).

24a
amendment and continued to maintain their accounts
at Branch Banking.
In short, Branch Banking repeatedly and
unambiguously informed plaintiffs that continued
maintenance of their bank accounts would constitute
acceptance of the bank services agreement (and by
extension, the arbitration agreement). After receiving
this notice, plaintiffs continued to maintain their
accounts with Branch Banking. We have recognized
that identical conduct in similar contexts constitutes
acceptance under Tennessee law. See, e.g., Seawright
v. Am. Gen. Fin. Servs., Inc., 507 F.3d 967, 970 (6th
Cir. 2007) (“We hold that [plaintiff’s] knowing
continuation of employment after the effective date of
the arbitration program constituted acceptance of a
valid and enforceable contract to arbitrate.”) The
same result should follow here.
In reaching a different conclusion, the majority
cites our unpublished case Lee v. Red Lobster Inns of
America, Inc., 92 F. App’x 158 (6th Cir. 2004). That
non-precedential decision is inapplicable here for two
reasons. First, the agreement in Lee did not instruct
the offeree that continuing their course of conduct (in
that case, working at a restaurant) would constitute
acceptance of the agreement. Id. at 163. In fact, we
explicitly distinguished Lee from “cases in which
employer-distributed materials told employees that
their continuing to work would constitute acceptance
of the employer’s dispute resolution plan.” Id. at 163
n.4. In those cases, “an employee’s remaining at work
past the effective date of the policy was properly
construed as manifestation of an agreement to be
bound.” Id. So too here; by continuing to maintain
their accounts at Branch Banking, plaintiffs
objectively manifested their consent to arbitration.

25a
Second, the Lee plaintiff explicitly informed her
employer that she would not agree to arbitrate. Id. at
162. In contrast, plaintiffs here did not object to the
arbitration agreement at any point in nearly two
decades since it was first introduced. Under the
circumstances of Lee, no reasonable person could have
concluded that the offer had been accepted. The facts
of this case, however, compel the opposite conclusion.
The majority also unduly focuses on what it calls
“the major flaw in the district court’s analysis,” its
failure to consider “whether the BSAs are invalid by
virtue of exceeding the scope of the original change-ofterms provision.” But Tennessee law allows a written
contract to be modified “in accordance with some
provision thereof authorizing a change upon specific
terms and conditions,” or “by consent of the parties.”
Cronbach v. Aetna Life Ins. Co., 284 S.W. 72, 73 (Tenn.
1926). Even if Branch Banking’s bank services
agreement (and included arbitration agreement)
exceeded the scope of the original agreement, the new
agreement is still effective in its own right because
plaintiffs consented to its terms when they continued
to maintain their accounts at the bank.
Finally, the majority condemns Branch Banking’s
conduct as “the antithesis of good faith and fair
dealing.” But Branch Banking merely offered terms
that plaintiffs accepted. The bank then met its
obligations to plaintiffs for sixteen-and-a-half years,
paying the 6.5% interest rate until the events that
began this litigation. During that time, Branch
Banking had every reason to believe that plaintiffs
had consented to the arbitration agreement and
subsequent amendments. Moreover, the merits of the
bank’s alleged breach are not before us. Rather, the
only issue presented is whether plaintiffs must

26a
perform their contractual obligation to arbitrate these
claims. Thus, for the purposes of this appeal, it is
plaintiffs who are “trying to wriggle out of a
commitment made years ago,” not Branch Banking.
II.
Second, the arbitration agreement is neither
adhesive nor unconscionable.
A.
To be adhesive under Tennessee law, a contract
must be offered (1) in a standardized form; (2) on a
“take it or leave it” basis; (3) without a realistic
opportunity to bargain; and (4) under such
circumstances that the consumer cannot obtain the
desired product except by acquiescing to the form of
the contract. Buraczynski v. Eyring, 919 S.W.2d 314,
320 (Tenn. 1996). Plaintiffs, as the parties resisting
arbitration, bear the burden of proving the
adhesiveness of the arbitration agreement. See Green
Tree Fin. Corp.-Alabama v. Randolph, 531 U.S. 79, 91
(1983).
Nothing suggests that plaintiffs lacked a realistic
opportunity to bargain when confronted with the
proposed arbitration agreement. As the district court
noted, plaintiffs “made no attempt at bargaining or
challenging the [arbitration] provisions” in the nearly
two decades since these provisions were first
introduced into their services agreements, and they do
not allege that they were somehow prevented from
bargaining with Branch Banking.
This alone is fatal to plaintiffs’ claims of
adhesiveness. But even if plaintiffs had established
this element, they have failed to show that they could
not obtain “the desired product” except by acquiescing

27a
to the arbitration agreement. Plaintiffs characterize
the “desired product or service” as a bank account
with a 6.5% interest rate. In my view, however, the
interest rate is better described as one desired term of
the service or product, not the service or product itself.
The Tennessee Court of Appeals’s decision in Pyburn
v. Bill Heard Chevrolet, 63 S.W.3d 351 (Tenn. Ct. App.
2001) is instructive on this point. There, plaintiff
purchased a Chevrolet van from a dealership that
required him to agree to arbitrate all claims arising
from the sale or financing of the van. Id. at 354. When
plaintiff later sued over what he believed to be a
fraudulent interest rate, the trial court rejected his
argument that the arbitration agreement was
adhesive and compelled arbitration. Id. at 353. The
court of appeals affirmed. In relevant part, the court
observed that if plaintiff had objected to the
arbitration agreement and the dealership “had
refused to sell Plaintiff the van, Plaintiff could have
gone to another Chevrolet dealership (or any other
type of dealership for that matter) and obtained a van
elsewhere if he considered the Agreement
unacceptable.” Id. at 360. Thus, the desired product
in Pyburn was not a Chevrolet van or a van with a
certain mileage or a van being offered at a certain
price. It was a van. Similarly, the desired product
here is not a bank account with a certain interest rate
or certain privileges. It is a bank account.
Once the desired product is properly defined, the
answer to the next question is obvious:
could
plaintiffs have obtained a bank account elsewhere
without acquiescing to Branch Banking’s arbitration
agreement? Of course. According to plaintiffs’ own
expert, they could have obtained a bank account in
Sevier County without having to agree to arbitration

28a
at all. Plaintiffs’ expert testified that in 2001 (the year
of the first arbitration amendment) “none of [the six
principal banks doing business in Sevier County] were
utilizing provisions in account agreements that would
. . . require disputes with the bank to be decided by
arbitration.” By the time that plaintiffs’ bank sent out
the second arbitration amendment in 2004,
arbitration agreements in Sevier County’s banking
scene were still “not a common or widespread
practice.” Even in 2017, only a “few banks in Sevier
County may have been utilizing [arbitration
agreements]” but arbitration was still not a “common,
widespread, or accepted practice by banks in Sevier
County.”
Each time that plaintiffs were faced with notice of
an arbitration agreement, they could have gone to
another nearby bank and—according to their expert—
received an account that would have preserved their
ready access to the courts. Instead, they chose to
remain at Branch Banking, with an arbitration
agreement and a higher interest rate. Having had
ample opportunity to find alternative banking
services, plaintiffs cannot now contend that Branch
Banking offered the arbitration agreements to them
under “such conditions that [they could not have]
obtain[ed] the desired product or service except by
acquiescing to the [arbitration agreement].”
Buraczynski, 919 S.W.2d at 320. Accordingly, this
arbitration agreement is not adhesive.
B.
But even if the arbitration agreement is adhesive,
“[that] does not end [the Court’s] inquiry because
contracts of adhesion still may be enforceable.”
Pyburn, 63 S.W.3d at 360; Wallace v. Nat’l Bank of
Commerce, 938 S.W.2d 684, 688 (Tenn. 1996) (“[N]ot

29a
all adhesion contracts are unenforceable.”).
An
adhesive contract’s enforceability “generally depends
upon whether the terms of the contract are beyond the
reasonable expectations of an ordinary person, or
oppressive or unconscionable.” Buraczynski, 919
S.W.2d at 320. A contract is unconscionable when the
“inequality of the bargain is so manifest as to shock
the judgment of a person of common sense, and where
the terms are so oppressive that no reasonable person
would make them on the one hand, and no honest and
fair person would accept them on the other.” Taylor
v. Butler, 142 S.W.3d 277, 285 (Tenn. 2004). “An
unconscionable contract is one in which the provisions
are so one-sided, in view of all the facts and
circumstances, that the contracting party is denied
any opportunity for meaningful choice.” Id. Again,
plaintiffs
bear
the
burden
of
showing
unconscionability. See Green Tree, 531 U.S. at 91.
Plaintiffs argue that this arbitration provision is
beyond the reasonable expectations of an ordinary
Sevier County resident because few, if any, other
banks in the county require arbitration. I see no
reason why this reasonableness determination should
be limited to the county level. Doing so would
effectively exempt the residents of one Tennessee
county from the national and state-wide policies
favoring the enforcement of arbitration agreements.
See Southland Corp. v. Keating, 465 U.S. 1, 10 (1984);
Buraczynski, 919 S.W.2d at 319. Moreover, by the
time that Branch Banking first introduced arbitration
agreements to plaintiffs, Tennessee courts had
enforced arbitration clauses across the spectrum of
consumer goods and services, including in healthcare
contracts, Buraczynski, 919 S.W.2d at 321, car
purchase agreements, Pyburn, 63 S.W.3d at 362, and

30a
consumer loan agreements, Berkley v. H&R Block E.
Tax Servs., Inc., 30 S.W.3d 341, 344 (Tenn. Ct. App.
2001).
The Tennessee Supreme Court also
acknowledged that, at least as of 2017, “account
agreements that contain predispute arbitration
agreements [were] ubiquitous among financial
services institutions.” Harvey ex rel. Gladden v.
Cumberland Tr. & Inv. Co., 532 S.W.3d 243, 263
(Tenn. 2017). Simply put, by the time that plaintiffs
assented to the operative agreement here,
arbitration—particularly arbitration with your
bank—was the rule, not the exception.
And the terms of this particular arbitration
agreement are neither oppressive nor unconscionable.
The 2017 arbitration agreement appeared on the first
page of the bank services agreement, under the bold,
capitalized
heading
“ARBITRATION
AGREEMENT.” Before describing the substance of
the agreement, there was an additional capitalized
warning:
IT IS IMPORTANT THAT YOU READ THIS
ARBITRATION PROVISION CAREFULLY.
IT PROVIDES THAT YOU MAY BE
REQUIRED TO SETTLE A CLAIM OR
DISPUTE THROUGH ARBITRATION,
EVEN IF YOU PREFER TO LITIGATE
SUCH CLAIMS IN COURT. YOU ARE
WAIVING RIGHTS YOU MAY HAVE TO
LITIGATE THE CLAIMS IN A COURT OR
BEFORE A JURY. YOU ARE WAIVING
YOUR RIGHT TO PARTICIPATE IN A
CLASS
ACTION
LAWSUIT,
CLASS
ACTION ARBITRATION, OR OTHER
REPRESENTATIVE
ACTION
WITH
RESPECT TO SUCH CLAIMS.

31a
The banking services agreement then described, in
detail, the terms of the arbitration agreement.
Tennessee courts look to eleven factors when
considering whether an adhesive arbitration
agreement is unconscionable:
(1) whether the
arbitration agreement is “hidden” in another
document; (2) whether the agreement “clearly
indicates that by agreeing to arbitration, [plaintiff] is
waiving her right to a jury trial,” (3) whether anything
suggests that plaintiff was “not provided with an
opportunity to question the terms of the agreement;”
(4) whether plaintiff was aware of other service
providers, (5) whether the agreement offers notice “as
to the procedure and effect of arbitration” including
“the procedure for seeking arbitration, how an
arbitrator will be appointed, the binding effect of
arbitration, or any of the procedure to be utilized
during the arbitration proceedings,” (6) whether
plaintiff was required to sign the agreement “in an
expedient manner,” (7) whether the agreement was
offered on a “take it or leave it” basis, (8) whether
there was “comparatively unequal bargaining power”
due to plaintiff’s “relative lack of knowledge” of the
industry, (9) whether the arbitration agreement
provided a method for revocation, (10) whether
arbitration agreements are “particularly common” in
the industry, and (11) whether the agreement
requires both sides to submit claims to arbitration.
See Wofford v. M.J. Edwards & Sons Funeral Home,
Inc., 490 S.W.3d 800, 822–24 (Tenn. Ct. App. 2015).
Nearly all of the Wofford factors weigh against
finding unconscionability. Branch Banking put the
arbitration agreement front-and-center in the bank
services agreement and drew special attention to it
with bold letters and a capitalized warning. Although

32a
the agreement was included in another document, it
cannot reasonably be described as hidden. Even the
most casual reader can scan their eyes halfway down
the first page of a document that governs their
banking relationship. The all-caps warning clearly
indicates plaintiffs’ waiver of a jury trial. There is no
indication that plaintiffs were not provided with an
opportunity to question the terms of the agreement or
were forced to agree in an expedient manner. And
Plaintiffs were surely aware of other banks to which
they could take their business.
The 2017 agreement also offered notice of the
arbitration’s procedure by stating that “[t]he
arbitration shall be administered by JAMS pursuant
to its Streamlined Arbitration Rules & Procedures.”
Although Branch Banking did not specifically
articulate these procedures in the agreement, it
notified the recipient that “[y]ou may obtain a copy of
the rules of the arbitration administrator, including
information about consumer arbitration, fees, and
instructions for initiation arbitration by contacting
JAMS at www.jamsadr.com. Phone: 800-352-5267.”
And the agreement also required Branch Banking to
submit any claims against plaintiffs to arbitration.
Moreover, the Tennessee Supreme Court has
acknowledged, at least by the time of the 2017
agreement, “account agreements that contain
predispute arbitration agreements [were] ubiquitous
among financial services institutions.” Cumberland
Trust, 532 S.W.3d at 263. This is particularly
important because “terms that are common in the
industry are generally not unconscionable.” Wofford,
490 S.W.3d at 819 (citation omitted).
Beyond the Wofford factors, the “costs to initiate
or pursue arbitration” is a “factor to be considered in

33a
determining whether the agreement to arbitrate is
enforceable.” Hill v. NHC Healthcare/Nashville,
LLC, No. M2005-01818-COA-R3-CV, 2008 WL
1901198, at *16 (Apr. 30, 2008). But “the party
seeking to invalidate an arbitration agreement on the
ground that the costs are too great has the burden of
proving such costs.” Id. (citing Pyburn, 63 S.W.3d at
363); see also Morrison v. Circuit City Stores, Inc., 317
F.3d 646, 659–60 (6th Cir. 2003) (“[T]he burden of
demonstrating that incurring [large arbitration costs
and fees that would deter litigants from seeking to
vindicate their rights in the arbitral forum] is likely
under a given set of circumstances rests, at least
initially, with the party opposing arbitration.”) A
plaintiff may satisfy this burden by, for example,
submitting the “rules and fee schedules” of the
possible arbitrators contemplated by the agreement.
Hill, 2008 WL 1901198, at *16 (“The proof shows that
the likely costs to simply initiate arbitration under the
agreement are very high, perhaps reaching $18,000.”)
Here, plaintiffs have not offered any proof
regarding the cost of arbitration. Although the
arbitration agreement discusses possible cost
allocation, there is no evidence in the record regarding
the financial burden that a plaintiff would likely bear
to arbitrate a claim. Thus, plaintiffs have not shown
that arbitration costs are prohibitive, and we have no
basis to conclude that the cost to initiate or pursue
arbitration renders this agreement unconscionable.
The majority cites In re Checking Account
Overdraft Litig., 685 F.3d 1269 (11th Cir. 2012), a case
where the Eleventh Circuit struck down a portion of
one of Branch Banking’s bank services agreements as
unconscionable. This decision is not relevant to our
current inquiry because it dealt with entirely different

34a
contractual language.
There, the agreement
mandated that the customer would be liable for all
costs that Branch Banking incurred as a result of any
dispute (win or lose) involving the customer’s account,
and that the bank could deduct these costs from the
account without prior notice. Id. at 1275. Applying
South Carolina law, the Eleventh Circuit found this
clause unconscionable because (1) it was buried on
page fourteen and separated from the arbitration
provision, id. at 1279–80, and (2) “the notion that a
claimant who prevails can be forced to pay the
respondent’s expense incurred in attempting to avoid
liability for its proven wrongdoing . . . contravenes
basic expectations derived from intuitive notions of
fairness.” Id. at 1281 (internal quotation marks and
citation omitted).
We do not have comparable terms here. The
operative arbitration agreement provides that “[t]he
arbitrator may, in its award, allocate all or part of the
costs of the arbitration, including the fees of the
arbitrator and the reasonable attorneys’ fees of the
prevailing party.” This clause appears on the first
page of the bank services agreement, under the bold,
capitalized
header
“ARBITRATION
AGREEMENT” and under an all-caps warning that
“YOU SHOULD READ THIS ARBITRATION
PROVISION CAREFULLY.” Consistent with this
clause, Tennessee allows parties to authorize the
arbitrator to allocate costs in its award. Tenn. Code
Ann. § 29-5-311. Moreover, the arbitrator is not
compelled to award costs and fees at all, as shown by
the agreement’s use of the permissive “may.” The
Branch Banking agreement currently before us is a
far cry from the one that the Eleventh Circuit found
unconscionable in In re Checking Account.

35a
We should not second-guess the precise balance
struck by the parties, and instead must limit our
review to determining unconscionability. Because
this arbitration agreement does not “shock the
judgment of a person of common sense,” or possess
terms that are “so oppressive that no reasonable
person would make them on the one hand, and no
honest and fair person would accept them on the
other,” or have provisions that are “so one-sided” that
plaintiffs were denied “any opportunity for
meaningful choice,” it is not unconscionable under
Tennessee law.
Pursuant to the parties’ valid agreement, this case
should proceed to arbitration.
III.
For these reasons, I respectfully dissent.

36a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-5174
SEVIER COUNTY SCHOOLS
FEDERAL CREDIT UNION;
SUSANNE MUNSON; GEOFFREY
WOLPERT; CHARLES MCGAHA;
CHARLENE MCGAHA; ROBIN
NICHOLS; GREGORY NICHOLS;
REX NICHOLS; SARAH MORRISON,
Plaintiffs-Appellants,
v.
BRANCH BANKING AND TRUST
COMPANY,
Defendant-Appellee.
Before: MOORE, GILMAN, and GRIFFIN,
Circuit Judges.
JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Tennessee at Knoxville.
THIS CASE was heard on the record from the
district court and was argued by counsel.

37a
IN CONSIDERATION THEREOF, it is
ORDERED that the judgment of the district court is
REVERSED
and
REMANDED
for
further
proceedings consistent with the opinion of this court.
ENTERED BY ORDER
OF THE COURT
__/s/ Deborah S. Hunt___
Deborah S. Hunt, Clerk

38a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE
SEVIER COUNTY
SCHOOLS FEDERAL
CREDIT UNION et al.,
Plaintiffs,
v.
BRANCH BANKING &
TRUST COMPANY,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

Case No. 3:19-cv-138
Judge Travis R.
McDonough
Magistrate Judge H.
Bruce Guyton

MEMORANDUM OPINION

Before the Court is Defendant Branch Banking &
Trust Company’s (“BB&T”) motion to dismiss and
compel arbitration (Doc. 12). For the following
reasons, BB&T’s motion (id.) will be GRANTED.

39a
I.

BACKGROUND1

BB&T is a bank organized under the laws of North
Carolina, with branches in many locations, including
Sevier County, Tennessee. (Doc. 13, at 2.) Plaintiffs
are current or former account holders with BB&T.
(Id.; Doc. 1-1, at 5.) Plaintiff Sevier County Schools
Federal Credit Union is a non-profit organization
located in Sevier County, Tennessee. (Doc. 1-1, at 4.)
The remaining named plaintiffs are persons residing
in Sevier County, Tennessee. (Id. at 4–5.)
A. Plaintiffs’ Accounts with First National
Bank of Gatlinburg
Beginning in 1989, Plaintiffs opened Money
Market Investment Accounts (“MMIAs”) with First
National Bank of Gatlinburg (“FNB”). (Id. at 7.) FNB
advertised the MMIAs to have a rate of return
1

As a preliminary matter, the Court will address Plaintiffs’
argument that the exhibits submitted in support of BB&T’s
motion (Docs. 12-1, 12-2, 12-3, 12-4, 12-5, 12-6) are inadmissible
and should not be considered by this Court. (See Doc. 28, at 31–
33.) Plaintiffs argue that certain portions of the Declaration of
BB&T’s Vice President, Christopher Powell, should be
disregarded because he (1) “does not establish that he has
personal knowledge” regarding the issuance of certain
documents, (2) “does not state that he worked at BB&T” during
all of the relevant time periods, and (3) “does not claim to have
examined any records establishing” the issuance of certain
documents. (Id. at 32.) However, Mr. Powell’s declaration
specifically states that the facts stated therein “are based on
personal knowledge obtained from my personal review of the
files, documents, and information of BB&T.” (Doc. 12-1, at 2.)
The Court is satisfied with this statement of Mr. Powell’s basis
of knowledge and will consider his declaration and the
accompanying documents in its review of Defendant’s motion.
See Fed. R. Evid. 602, 901 (witness testimony can prove personal
knowledge and authenticity of evidence).

40a
guaranteed never to fall below 6.5%, subject to the
account
holder’s
compliance
with
certain
requirements. (Id. at 7, 15.) Upon opening an MMIA,
each plaintiff signed an agreement (“MMIA
Agreement”) with FNB. (Id. at 7; Doc. 13, at 2.) Each
MMIA Agreement reserved to FNB the right to
change its terms:
Changes in the terms of this agreement may
be made by the financial institution from
time to time and shall become effective upon
the earlier of (a) the expiration of a thirty-day
period of posting such changes in the
financial institution, or (b) the mailing or
delivery of notice thereof to the depositor by
the notice in the depositor’s monthly
statement for one month.
(Doc. 12-2, at 2; Doc. 13, at 2.)
On or about January 22, 1992, FNB sent letters to
MMIA-holders, notifying them that FNB would no
longer maintain the 6.5% rate of return due to
economic pressures. (Doc. 1-1, at 8, 21.) In response
to backlash from MMIA-holders, FNB circulated
another letter on February 21, 1992. (Id. at 8, 22.) The
February 21, 1992 letter announced that MMIAs
would be discontinued on March 31, 1992, and that
existing MMIAs would be closed. (Id. at 22.) However,
FNB offered to transfer “all or any portion of [the]
funds to any other account or a combination of
accounts,” and provided the following options: (1)
account holders could put their funds in “New Money
Market Investment Accounts” with a rate of interest
that would be set by FNB weekly; (2) they could invest
in a “Certificate of Deposit” with an interest rate of
6.5% and a choice of maturity between three months
to five years; or (3) they could transfer their funds to

41a
a “Maintenance Account” with all the features of the
former MMIAs except that no additional deposits
would be allowed. (Id.) Each plaintiff chose the third
option “after being reassured that the account would
forever maintain the guaranteed 6.5% rate.” (Id. at
8.)
B. BB&T’s Transition to Ownership
On or about March 22, 1997, FNB merged with
BankFirst of Tennessee (“BankFirst”). (Id.; Doc. 13, at
3.) BankFirst continued to pay 6.5% interest in
connection with the Maintenance Accounts. (Doc. 1-1,
at 8; Doc. 28, at 4.) On or about July 13, 2001,
BankFirst merged with and began operating as part
of BB&T. (Doc. 1-1, at 8.) BB&T was aware of the
Maintenance Accounts and its obligations to former
MMIA-holders. (Id. at 9.) On or about July 16, 2001,
BB&T converted those accounts to Money Rate
Savings Accounts (“MRSAs”).2 (Id.)
C. Agreements Between Plaintiffs and
BB&T
As part of its acquisition of BankFirst in 2001,
BB&T provided a welcome letter to each Plaintiff and
a “Bank Services Agreement.” (Doc. 13, at 3.) The
Bank Services Agreement stated that, by maintaining
an account with BB&T, account holders agreed to the
terms of the agreement. (Id.; Doc. 12-3, at 4.) The
agreement further stated that its terms could be
amended, that amendments would be accomplished
by written notice to account holders, and that
continued use of an account following notice of an
2

BB&T asserts that some of the former MMIAs were also
converted into Investor Deposit Accounts (Doc. 13, at 3), though
Plaintiffs do not reference any such accounts in their complaint
(see generally Doc. 1-1).

42a
amendment would constitute acceptance of the
amendment. (Doc. 12-3, at 4.) The agreement also
included an arbitration provision, which stated, “You
and the Bank each have the option of requiring that
any dispute or controversy concerning your account be
decided by binding arbitration . . . .” (Id. at 9.)
BB&T amended the Bank Services Agreement in
September 2004 (the “2004 Amendment”). (Doc. 13,
at 4.) Among other things, the 2004 Amendment
provided that, effective October 28, 2004, the existing
arbitration section (Doc. 12-3, at 9) would be replaced
with a new, longer section on arbitration (see Doc. 124, at 2–3). The new section stated:
Any claim or dispute (“Claim”) by either you
or us against the other arising from or
relating in any way to your account, this
Agreement or any transaction conducted at
the Bank or any of its affiliates, will, at the
election of either you or us, be resolved by
binding arbitration.
This arbitration
provision governs all Claims, whether such
Claims are based on law, statute, contract,
regulation, ordinance, tort, common law,
constitutional provision, or any other legal
theory and whether such Claim seeks as
remedies
money
damages,
penalties,
injunctions, or declaratory or equitable relief.
(Id. at 3.) It further stated that “Claims subject to this
arbitration provision include Claims regarding the
applicability of this provision or the validity of this or
any prior Bank Services Agreement.” (Id.) The 2004
Amendment also stated that continued use of the
account after the effective date of the amendment
would constitute acceptance of the changes therein.
(Id. at 2). BB&T sent notice and a copy of the 2004

43a
Amendment to each customer, and Plaintiffs
continued to use their accounts. (Doc. 13, at 4.)
On April 13, 2017, BB&T again amended the
Bank Services Agreement (the “2017 Amendment”).
(Id.) The 2017 Amendment made many changes to
the Bank Services Agreement, including an
amendment to the arbitration provision. The new
provision began:
IT IS IMPORTANT THAT YOU READ THIS
ARBITRATION PROVISION CAREFULLY.
IT PROVIDES THAT YOU MAY BE
REQUIRED TO SETTLE A CLAIM OR
DISPUTE THROUGH ARBITRATION,
EVEN IF YOU PREFER TO LITIGATE
SUCH CLAIMS IN COURT. YOU ARE
WAIVING RIGHTS YOU MAY HAVE TO
LITIGATE THE CLAIMS IN A COURT OR
BEFORE A JURY. YOU ARE WAIVING
YOUR RIGHT TO PARTICIPATE IN A
CLASS
ACTION
LAWSUIT,
CLASS
ACTION ARBITRATION, OR OTHER
REPRESENTATIVE
ACTION
WITH
RESPECT TO SUCH CLAIMS.
(Doc. 12-5, at 4.) It went on to state:
Any dispute, claim, controversy or cause of
action, that is filed in any court and that
arises out of or relates to this Agreement or
the breach, termination, enforcement,
interpretation or validity thereof, including
the determination of the scope or
applicability of this agreement to arbitrate,
shall be determined by arbitration before one
arbitrator at a location mutually agreed upon
in the state where your account is

44a
maintained, or as may be otherwise required
under the JAMS Minimum Consumer
Standards, which is incorporated by
reference herein. . . .
If a party elects
arbitration, it may be conducted as an
individual action only. This means that even
if a demand for a class action lawsuit, class
arbitration, or other representative action
(including a private attorney general action)
is filed, the matter will be subject to
individual arbitration. Either party may
bring a summary or expedited motion to
compel arbitration or to stay the applicable
litigation of a dispute in any court. Such
motion may be brought at any time, and the
failure to initiate or request arbitration at
the beginning of litigation shall not be
construed as a waiver of the right to
arbitration. . . .
(Id.) The new provision further stated:
You and the Bank each agree that under this
Agreement, you and the Bank are
participating in transactions involving
interstate commerce which shall be governed
by the provisions of the Federal Arbitration
Act . . . and not by state law concerning
arbitration. . . .
(Id. at 5.) The 2017 Amendment, again, provided that
continued use of the account after receipt of the notice
constituted acceptance of the changes (Doc 12-5, at 4),
and Plaintiffs continued to use their accounts
following the amendment (Doc. 13, at 5; see also Doc.
1-1, at 5).

45a
BB&T sent notice of the 2017 Amendment to each
customer. (Doc. 13, at 4.) The notice drew particular
attention to the amendment of the arbitration
provision, stating “The following paragraph replaces
both the second and third paragraphs of the
ARBITRATION AGREEMENT section of your Bank
Services Agreement,” and reproduces the abovereference paragraph that begins with “Any dispute,
claim, controversy, or cause of action . . . .” (Doc. 126, at 2.)
From its acquisition of ownership in 2001 until
January 2018, BB&T honored the 6.5% interest rate
for the former MMIAs.3 (Doc. 1-1, at 9.) Plaintiffs
refrained from depositing additional funds into their
MRSAs and did not transfer ownership of the
accounts. (Id.)
However, on or about January 30, 2018, Plaintiffs
received notice that the annual percentage rate of
their accounts would drop to 1.05% on March 10, 2018.
(Id.) Plaintiffs were also informed that, after March
31, 2019, the rates would “automatically adjust to
BB&T’s standard balance tiers, as well as to the
current standard variable rate of the interest and
[annual percentage yield].” (Id. at 9, 26–27.) For all
accounts with a balance of $1,000 or more, the
“standard balance tiers” reflected an interest rate of
0.01%. (Id. at 10, 26–27.)

3

The only time the interest rate dropped below the expected
percentage was in December 2001, when, due to a system error,
the interest rate on some accounts was briefly lowered to 3.32%.
(Doc. 1-1, at 9.) Upon discovering the error, BB&T notified the
affected account holders, reset the interest rate, and repaid the
lost interest. (Id. at 9, 24–25.)

46a
D. The Present Action
On March 22, 2019, Plaintiffs filed this action in
the Circuit Court for Sevier County, Tennessee, on
behalf of themselves and all other persons similarly
situated. (Doc. 1-1, at 1, 5.) Plaintiffs allege that
BB&T is liable for breach of contract based on its
actions in lowering the interest rate on March 10,
2018. (Id. at 10.) The action was timely removed to
federal court, and, on June 3, 2019, BB&T filed its
motion to dismiss and compel arbitration (Doc. 12),
which is ripe for the Court’s review.
II. STANDARD OF REVIEW
The Federal Arbitration Act (“FAA”) allows
parties to a contract to agree that certain
controversies arising from the contract shall be
decided by an arbitrator rather than by a court. See 9
U.S.C. § 2. The primary substantive provision of the
FAA is § 2, AT&T Mobility LLC v. Concepcion, 563
U.S. 333, 339 (2011) (quoting Moses H. Cone Mem’l
Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24 (1983)),
which provides, in pertinent part:
A written provision in . . . a contract
evidencing a transaction involving commerce
to settle by arbitration a controversy
thereafter arising out of such contract or
transaction, or the refusal to perform the
whole or any part thereof, or an agreement in
writing to submit to arbitration an existing
controversy arising out of such a contract,
transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the
revocation of any contract.

47a
9 U.S.C. § 2. This section embodies “a liberal federal
policy favoring arbitration.” AT&T Mobility, 563 U.S.
at 339 (quoting Moses H. Cone, 460 U.S. at 24). The
principal purpose of the FAA is to ensure the
enforcement of private arbitration agreements
according to their terms, and the broader purpose of
allowing parties to submit grievances to arbitration is
to facilitate “efficient, streamlined procedures tailored
to the type of dispute” at issue. Id. at 344 (citations
omitted); see also Stout v. J.D. Byrider, 228 F.3d 709,
714 (6th Cir. 2000) (“The FAA was designed to
override judicial reluctance to enforce arbitration
agreements, to relieve court congestion, and to
provide parties with a speedier and less costly
alternative to litigation.”).
When considering a motion to dismiss and to
compel arbitration, a district court is responsible for
four tasks:
[F]irst, it must determine whether the
parties agreed to arbitrate; second, it must
determine the scope of that agreement; third,
if federal statutory claims are asserted, it
must consider whether Congress intended
those claims to be nonarbitrable; and fourth,
if the court concludes that some, but not all,
of the claims in the action are subject to
arbitration, it must determine whether to
stay the remainder of the proceedings
pending arbitration.
McGee v. Armstrong, --- F.3d ---, 2019 WL 5556756, at
*4 (6th Cir. Oct. 29, 2019) (quoting Stout, 228 F.3d at
714). Here, Plaintiffs do not assert any federal claims,
so only tasks one, two, and four are relevant to the
Court’s review. (See Doc. 1-1, at 10–11).

48a
III. ANALYSIS
BB&T argues that each plaintiff is required to
arbitrate for three reasons. (Doc. 12, at 1.) First,
BB&T contends that the 2001 Bank Services
Agreement and amendments thereto established an
agreement to arbitrate. (Id.) Second, BB&T contends
that the arbitration agreement is “valid, binding, and
enforceable under the FAA.” (Id.) Third, BB&T
argues that the claims of each plaintiff fall within the
arbitration agreement in the Bank Services
Agreement. (Id.) Plaintiffs counter that: (1) they did
not agree to arbitrate their disputes or waive their
option to pursue their claims as a class; (2) any
agreement between the parties was a contract of
adhesion; and (3) the arbitration agreements therein
are unenforceable. (Doc. 28, at 1–2.)
A. Whether the Parties Agreed to Arbitrate
Under the FAA, arbitration is a matter of
contract. Henry Schein, Inc. v. Archer & White Sales,
Inc., 139 S. Ct. 524, 529 (2019) (citing Rent-A-Ctr.,
West, Inc. v. Jackson, 561 U.S. 63, 67 (2010)). Thus,
“courts must place arbitration agreements on an
equal footing with other contracts . . . and enforce
them according to their terms.” AT&T Mobility, 563
U.S. at 339 (quoting Buckeye Check Cashing, Inc. v.
Cardegna, 546 U.S. 440, 443 (2006); Volt Info. Scis.,
Inc. v. Bd. of Trs. of Leland Stanford Junior Univ., 489
U.S. 468, 478 (1989)) (internal quotation marks
omitted).
A party opposing arbitration may bring two types
of validity challenges under § 2 of the FAA. Rent-ACtr., 561 U.S. at 70; Buckeye, 546 U.S. at 444. The
party may challenge the validity of the agreement to
arbitrate or may challenge the validity of the larger

49a
contract in which the arbitration agreement appears.
Rent-A-Ctr., 561 U.S. at 70, Buckeye, 546 U.S. at 444.
The Supreme Court has held that “only the first type
of challenge is relevant to a court’s determination
whether the arbitration agreement at issue is
enforceable.” Rent-A-Ctr., 561 U.S. at 70. Thus, when
a party challenges the validity of the arbitration
agreement, as opposed to the contract generally, the
court must consider the challenge. Id. at 71; see also
Frizzell Constr. Co. v. Gatlinburg, LLC, 9 S.W.3d 79,
84 (Tenn. 1999) (“[P]arties cannot be forced to
arbitrate claims that they did not agree to
arbitrate.’”).
Here, Plaintiffs argue both that they never agreed
to arbitrate and that, even if there was an agreement
to arbitrate, such agreement is unenforceable. (Doc.
28, at 10, 18.)
i.

Whether the Parties Entered into
an Agreement to Arbitrate

The formation of a valid contract in Tennessee
requires both mutual assent and consideration. Acuff
v. Baker, No. W2018-00678-COA-R3-CV, 2019 WL
211922, at *11 (citing Restatement (Second) of
Contracts §§ 17, 22). Plaintiffs argue that they never
assented to the alleged arbitration agreement and
that any such agreement is not supported by
consideration. (See Doc. 28, at 10–12, 18.)
a. Mutual Assent
It is well settled that, “for a contract to be
consummated, the parties must mutually assent to
the material terms.” Allstate Ins. Co. v. Tarrant, 363
S.W.3d 508, 528 (Tenn. 2012). To determine whether
there was mutual assent, courts must objectively
assess the parties’ intent as manifested by their

50a
actions. Id. In this case, there is no dispute that each
Plaintiff agreed to be bound by terms of the initial
MMIA Agreement. (See Doc. 28, at 13–14.) Rather,
the issue is whether their assent to the term in the
MMIA Agreement that “changes in the terms of [the]
agreement may be made by the financial institution
from time to time” includes assent to the changes in
the Banks Services Agreement and subsequent
amendments. (See Doc. 12-2, at 2.) If not, the
question becomes whether Plaintiffs are otherwise
bound to the Bank Services Agreement and its
amendments by virtue of their continued use of the
accounts.
BB&T maintains that it had authority under the
MMIA Agreement to add an arbitration provision in
the Bank Services Agreement and the amendments.
(Doc. 34, at 9.) It contends that it could amend the
terms of the MMIA Agreement with thirty days’ notice
to the account holders. (Doc. 13, at 3.) However, the
MMIA Agreement actually stated that any changes to
the terms of the agreement by the financial
institution.
shall become effective upon the earlier of (a)
the expiration of a thirty-day period of
posting such changes in the financial
institution, or (b) the mailing or delivery of
notice thereof to the depositor by the notice
in the depositor’s monthly statement for one
month.
(Doc. 12-2, at 2.) Plaintiffs argue that BB&T has not
shown that the Bank Services Agreement, the 2004
Amendment, or the 2017 Amendment “were ever
included in a monthly statement or posted at the bank

51a
branch as required by the [MMIA Agreement].”4 (Doc.
28, at 5, 13 n.5.)
From the Court’s own review of the record, it
remains unclear whether these documents were
distributed in a manner consistent with the MMIA
Agreement. BB&T only asserts that: (1) it “provided”
each Plaintiff with a welcome letter and copy of the
Bank Services Agreement as part of the acquisition of
BankFirst (Doc. 12-1, at 4; Doc. 13, at 3); (2) it “sent”
notice of the 2004 amendment and a copy thereof to
each Plaintiff (Doc. 12-1, at 4 (stating only that BB&T
sent notice of the amendment); Doc. 13, at 4 (stating
that BB&T sent notice and a copy)); and (3) it “sent”
notice of the 2017 Amendment to each Plaintiff (Doc.
12-1, at 5; Doc. 13, at 4.) The Court is unable to
determine whether these documents were sent “by the
notice in the depositor’s monthly statement” or
otherwise posted in the bank as required by the MMIA
Agreement.
Accordingly, the Court must consider whether the
later agreements between BB&T and Plaintiffs are
binding in their own right.
BB&T argues that Plaintiffs accepted the terms of
the Bank Services Agreement, the 2004 Amendment,
and the 2017 Amendment by their continued use of
the accounts after the effective dates. (Doc. 13, at 11.)
Plaintiffs counter that their inaction after receipt of
the Bank Services Agreement does not amount to
4

Plaintiffs also contend that the addition of an arbitration
agreement was not contemplated by the language of the MMIA
Agreement. (See Doc. 28, at 13 –14.) However, because the Court
finds that BB&T did not follow the procedures for effectuating an
amendment to the MMIA Agreement, it need not consider the
substantive reasonableness of the change.

52a
assent to be bound by its terms. (Doc. 28, at 10–12.)
It is true that silence or inaction does not amount to
acceptance of an offer, “unless the circumstances
indicate that such an inference of assent is
warranted.” Westfall v. Brentwood Serv. Grp., Inc.,
No. E2000-01086-COA-R3-CV, 2000 WL 1721659, at
*5 (Tenn. Ct. App. Nov. 17, 2000). However, BB&T
does not rely on Plaintiffs’ silence or inaction as
acceptance of the terms of the Bank Services
Agreement and the amendments. Instead, it contends
that the act of continuing to maintain accounts with
BB&T after the effective dates constituted assent to
those agreements. (See Doc. 13, at 11.)
In Tennessee, “mutual assent need not be
manifested in writing,” but “may be manifested, in
whole or in party, by the parties’ spoken words or by
their actions or inactions.” Burton v. Warren Farmers
Co-op, 129 S.W.3d 513, 521 (Tenn. Ct. App. 2002)
(citing Cole-McIntyre-Norfleet Co. v. Holloway, 214
S.W. 817, 818 (Tenn. 1919)); see also Moody Realty
Co., Inc. v. Huestis, 237 S.W.3d 666, 674 (Tenn. Ct.
App. 2007) (“The parties’ actions or inactions, as well
as spoken words, can establish mutual assent.”). It
follows that signatures of the parties are not
necessary to establish a binding contract, but are
merely one form of evidence of assent. Moody Realty,
237 S.W.3d at 674 (noting that “other manifestations
of assent can serve the same purpose in the absence of
signature”).
“Whether an action constitutes
acceptance must be assessed in terms of whether it
would lead a reasonable person to conclude that the
offer has been accepted.” Rode Oil Co., Inc. v. Lamar
Advertising Co., No. W2007-02017-COA-R3-CV, 2008
WL 4367300, at *6 (Tenn. Ct. App. Sept. 18, 2008)
(citations and internal quotations marks omitted).

53a
But mutual assent should not “be inferred from the
unilateral acts of one party or by an ambiguous course
of dealing between the parties from which different
inferences regarding the terms of the contract may be
drawn.”
Burton, 129 S.W.3d at 521 (citing
Jamestowne on Signal, Inc. v. First Fed. Sav. & Loan
Ass’n, 807 S.W.2d 559, 564 (Tenn. Ct. App. 1990)).
While no Tennessee or related federal case
directly addresses the circumstances at issue in this
case, other courts have found that continuing with a
particular course of action can constitute assent to
contractual terms.
1. Employment Cases
Cases interpreting Tennessee law that have found
that continued employment can amount to assent to
be bound by an agreement to arbitrate, even in the
absence of a signature or other express assent to the
terms of the agreement. See, e.g., Seawright v. Am.
Gen. Fin. Servs., Inc., 507 F.3d 967, 970 (6th Cir.
2007); Fisher v. GE Med. Sys., 276 F. Supp. 2d 891,
895 (M.D. Tenn. 2003).
In Fisher, the plaintiff had been employed by the
defendant, and during his employment a copy of the
defendant corporation’s dispute-resolution program
was mailed to each employee. 276 F. Supp. 2d at 892.
The program constituted “a written agreement for the
resolution of employment issues,” which required that
employees engage in mediation prior to filing suit in
court. Id. The plaintiff was aware of the program and
had discussed it with other employees, but did not
remember ever receiving a copy of the program. Id.
However, the written program itself stated that
individuals employed at the time of its
implementation agreed, “by continuing [their]

54a
employment” to abide by the plan “as a condition of
employment.” Id. (alteration in original). The
plaintiff nevertheless argued that he was not bound
by the dispute resolution program, because the
program “was unilaterally imposed, lacked [the
employees’] consent, and lacked the consideration
necessary to enforce a contract.” Id. at 894.
The court found that the plaintiff was bound by
the terms of the program. Id. at 896. In so finding, it
first noted that, in Tennessee, “the terms of an
employee handbook may become part of the
employee’s contract of employment, provided the plan
demonstrates that both parties are bound by the rules
and regulations therein,” and that both the plaintiff
and the defendant were bound by the dispute
resolution program. Id. at 894–95. Second, the court
concluded that the employees had agreed to the
program procedures “by virtue of their continued
employment.” Id. at 895. The court observed that the
plaintiff was aware of the nature of the dispute
resolution program, though he claimed that he had
not received a copy of it, and that such awareness
rendered his continued employment “sufficient
acceptance of the agreement to make it a valid
contract.” Id.
In Seawright, the United States Court of Appeals
for the Sixth Circuit held that the plaintiff-employee’s
“knowing continuation of employment after the
effective date of the arbitration program constituted
acceptance of a valid and enforceable contract to
arbitrate.” 507 F.3d at 970. In that case, the
defendant company initially introduced its disputeresolution
program
“through
a
series
of
announcements and informational meetings,” as well
as letters and pamphlets that were sent to employees.

55a
Id. at 970–71. The plaintiff had signed an attendance
sheet acknowledging that she had attended an
informational session and received a copy of the
pamphlet, but maintained that she never assented to
the program. Id. at 971.
The Sixth Circuit observed that, “Tennessee law
recognizes the validity of unilateral contracts, in
which acceptance is indicated by action under the
contract.” Id. at 972 (quoting Fisher, 276 F. Supp. 2d
at 895). It emphasized the fact that materials
accompanying
the
arbitration
agreement
unambiguously stated that continued employment
beyond the effective date of the program constituted
acceptance of the agreement to arbitrate. Id. The
court distinguished the facts at issue from those in an
unpublished Sixth Circuit case, Lee v. Red Lobster
Inns of Am., Inc., 92 F. App’x 158 (6th Cir. 2004), in
which the court found that the plaintiff-employee had
not entered into an agreement to arbitrate.
Seawright, 507 F.3d at 973. First, the court observed
that “the agreement at issue in Lee did not contain any
provision that stipulated continued employment
would constitute acceptances.” Id.; see also Lee, 92 F.
App’x at 163 n.4 (“The case at bar is distinguishable,
of course, from cases in which employer-distributed
materials told employees that their continuing to
work would constitute acceptance of the employer’s
dispute resolution plan.”) Second, it noted that “the
plaintiff in Lee explicitly told her boss that she did not
assent to the agreement,” whereas the plaintiff in
Seawright had not. Seawright, 507 F.3d at 973. The
court was clear, though, that “[the plaintiff’s]
acceptance came not from her silence in the face of an
offer, but from her performance under the contract—
that is, her continued employment.” Id. at 973 n.2.

56a
Still, there are cases interpreting Tennessee law
that have held that continued employment did not
amount to mutual assent to an arbitration agreement.
See, e.g., Lee, 92 F. App’x at 162–63 (continued
employment did not constitute assent when the
agreement did not indicate that continued
employment would constitute assent and the
employee told her supervisor that she would not agree
to arbitrate); Walker v. Ryan’s Family Steak Houses,
Inc., 289 F. Supp. 2d 916, 935–36 (M.D. Tenn. 2003)
(continued employment did not constitute assent
when there was strong evidence that employees were
given misinformation about the agreement they were
signing and it was unclear whether they were ever
provided with the material terms of the agreement).
However, when the employee was provided with the
agreement, the employee did not object to the terms of
the agreement, and the agreement specifically stated
that continued employment after the effective date
would amount to acceptance of the terms of the
agreement, Tennessee law treats continued
employment as assent to an agreement to arbitrate.
See Seawright, 507 F.3d at 970; Fisher, 276 F. Supp.
2d at 895.
2. Subscription-Service Cases
Courts in neighboring jurisdictions have also
treated the continued use of a subscription service as
evidence of assent to the terms of the agreement
governing that service. See, e.g., Schwartz v. Comcast
Corp., 256 F. App’x 515, 518–20 (3d Cir. 2007);
Statchurski v. DirecTV, Inc., 642 F. Supp. 2d 758,
764–66 (N.D. Ohio 2009).
In Stachurski, the district court found that
television-service subscribers agreed to be bound by
the terms of the customer agreement, despite their

57a
contentions that they had neither read nor signed the
agreement after receiving it. 642 F. Supp. 2d at 764–
66. Though the agreement was “stuffed” into their
billing statements and was in small type, the court
found that the plaintiffs’ failure to read the
agreement, including the arbitration clause therein,
did not defeat contract formation. Id. at 765. The
court reasoned that, because the agreement stated
that continuing to receive the service would amount
to acceptance of the terms, the plaintiffs had agreed
to the terms by continuing to use the defendant’s
services. Id. at 765–66 (noting that “Plaintiffs did not
dispute the terms of the Customer Agreement or
cancel Defendant’s services after receiving a copy of
the original Customer Agreement or any updated copy
of the agreement”).
In Schwartz, the United States Court of Appeals
for the Third Circuit held that the plaintiff was bound
by the terms of a subscriber agreement, including an
arbitration clause, despite his contentions that he had
not received a copy of the agreement, because: (1) the
defendant service-provider produced evidence of its
practice of distributing subscriber agreements; (2) the
plaintiff knew the services were being offered
pursuant to some agreement with the defendant; and
(3) both parties had performed under the agreement—
the defendant had provided the service, and the
plaintiff had paid the monthly fee. 256 F. App’x at
518–20. The court of appeals even opined that
“[w]hether or not [the plaintiff] received a copy of the
subscription agreement, he could not accept services
he knew were being tendered on the basis of a
subscription agreement without becoming bound by
that agreement.” Id. at 518.

58a
On the other hand, some courts have declined to
find that continued use of a subscription-based service
constituted acceptance of service agreement. For
example, in Schnabel v. Trilegiant Corp., 697 F.3d 110
(2d Cir. 2012), the United States Court of Appeals for
the Second Circuit concluded that the plaintiff was
not bound to an arbitration agreement with an online
discount provider when the only notice of the
agreement to arbitrate was in an unsolicited email
from the provider. Id. at 123. The court held that the
email, which was received after enrollment, did not
put the recipients on “inquiry notice of the terms
enclosed in that email and those terms’ relationship
to a service in which the recipients had already
enrolled, and that a failure to act affirmatively to
cancel the membership will, alone, constitute assent.”
Id. (emphasis in original). The United States Court of
Appeals for the Ninth Circuit similarly found that a
subscriber to a satellite-radio service was not bound
by an arbitration clause in the service’s customer
agreement when he became a subscriber upon the
purchase of a new vehicle and had no knowledge or
notice that he was entering into a contractual
relationship with the radio service. Knutson v. Sirius
XM Radio, Inc., 771 F.3d 559, 566 (9th Cir. 2014)
(noting that the plaintiff believed that the
subscription “was a complimentary service provided
for marketing purposes”). In both of these cases, the
courts concluded that the plaintiffs were reasonably
unaware that their actions would be covered by an
agreement with the defendant at all. See id. (“A
reasonable person in [the plaintiff’s] position could not
be expected to understand that purchasing a vehicle
from Toyota would simultaneously bind him or her to
any contract with Sirius XM, let alone one that
contained an arbitration provision . . . .”); Schnabel,

59a
697 F.3d at 123 (“[A]n offeree, regardless of apparent
manifestation of his consent, is not bound by
inconspicuous contractual provisions of which he is
unaware, contained in a document whose contractual
nature is not obvious.”)
Taken together, these subscription-service cases
indicate a trend toward finding assent based on
continued use when the subscribers are on notice that
use of the service would be governed by a contractual
agreement with the service provider, as opposed to
finding no contractual agreement based on continued
use in the absence of such notice.
3. Application to This Case
Although these Tennessee cases do not directly
control the resolution of the case at issue, they counsel
toward finding that Plaintiffs assented to be bound by
the arbitration agreement. Although they did not sign
the agreement or confirm their assent in writing, the
Bank Services Agreement and each of the
amendments specifically stated that continuing to
hold accounts with BB&T would operate as
acceptance of the terms. (See Doc. 12-3, at 4; Doc. 124, at 2; Doc. 125, at 4.) In addition, BB&T has
sufficiently demonstrated that Plaintiffs were
provided with some form of notice regarding each
version of the agreement. (See Doc. 13, at 3–4.)
Individuals and organizations who maintain accounts
at banks would reasonably expect their relationship
with the bank to be governed by some sort of
agreement and that a bank assuming new ownership
would impose its own terms regarding that
relationship. Moreover, Plaintiffs do not contend that
any of them objected—throughout the course of nearly
two decades—to the arbitration provisions in any of
the agreements, nor do they contend that copies of the

60a
various agreements were unavailable to them at any
time. On these facts, the Court finds that Plaintiffs’
continued use of their accounts without objection after
the effective dates of the agreement amounts to assent
to the terms of the Banks Services Agreement, the
2004 Amendment, and the 2017 Amendment.
Because the 2017 Amendment is the most recent
agreement to which Plaintiffs assented prior to filing
this lawsuit, that version of the arbitration agreement
is the one relevant the parties’ dispute.
b. Consideration
With respect to Plaintiffs’ argument that the
Bank Services Agreement and the amendments are
not binding because there was no consideration for
Plaintiffs’ agreement to arbitrate and class action
waiver (Doc. 28, at 18), the Court finds that there was
adequate consideration to bind Plaintiffs to the terms
of the agreements. In Tennessee, “[m]utuality of
promises is ‘ample’ consideration for a contract.”
Pyburn v. Bill Heard Chevrolet, 63 S.W.3d 351, 358
(Tenn. Ct. App. 2001).
Accordingly, there is
consideration for an arbitration agreement if both
parties agree to be bound by the requirement to
arbitrate certain claims. See id.; see also Seawright,
507 F.3d at 974. Because the arbitration provision in
the 2017 Amendment bound both the account holders
and the bank (see Doc. 12-5, at 4–5), there was
adequate consideration for the provision.
ii. Whether the Agreement to
Arbitrate is Enforceable
The last clause of § 2 allows arbitration
agreements to be declared invalid or unenforceable
“upon such grounds as exist at law or in equity for the
revocation of any contract.” 9 U.S.C. § 2. This clause

61a
permits arbitration agreements, like other contracts,
“to be invalidated by generally applicable contract
defenses, such as fraud, duress, or unconscionability.”
AT&T Mobility, 563 U.S. at 339 (citations and
internal quotation marks omitted); Rent-A-Ctr., 561
U.S. at 68 (quoting Doctor’s Assocs., Inc. v. Casarotto,
517 U.S. 681, 687 (1996)).
Here, Plaintiffs argue that, even if there is an
arbitration agreement between the parties, the
agreement is an unenforceable contract of adhesion.
(Doc. 28, at 18.)
a. Whether the Arbitration Agreement is
Adhesive
The Tennessee Supreme Court has defined a
contract of adhesion as “a standardized contract form
offered to consumers of goods and services on
essentially a ‘take it or leave it’ basis, without
affording the consumer a realistic opportunity to
bargain and under such conditions that the consumer
cannot obtain the desired product or service except by
acquiescing to the form of the contract.” Buraczynski
v. Eyring, 919 S.W.2d 314, 320 (Tenn. 1996) (quoting
Adhesion Contract, Black’s Law Dictionary (6th ed.
1990)5; Broemmer v. Abortion Servs. of Phoenix Ltd.,
840 P.2d 1013, 1015 (Ariz. 1992)). The defining
characteristic of such contracts in Tennessee is the
difference in bargaining power between the two
parties that enables one party “to select and control
5

The current version of Black’s Law Dictionary defines
“adhesion contract” as “[a] standard- form contract prepared by
one party, to be signed by another party in a weaker condition,
[usually] a consumer, who adheres to the contract with little
choice about the terms.” Adhesion Contract, Black’s Law
Dictionary (11th ed. 2019).

62a
risks assumed under the contract” and leaves the
other party with “no realistic choice as to its terms.”
Id. (citations omitted).
However, “[a] contract is not adhesive merely
because it is a standardized form offered on a take-itor-leave-it basis.” Cooper v. MRM Inv. Co., 367 F.3d
493, 500 (6th Cir. 2004). “Even after Buraczynski,
Tennessee courts decline to find arbitration provisions
adhesive where the consumer fails to prove that
refusal to sign would cause some detriment other than
not being able to buy from the particular merchant[.]”
Id. In Wallace v. National Bank of Commerce, 938
S.W.2d 684 (Tenn. 1996), the Tennessee Supreme
Court held that certain “deposit agreements” between
a bank and its account holders were not contracts of
adhesion. Id. at 687–88. It held that, although the
deposit agreements were standardized forms and the
opportunity to open an account was presented on a
“take-it-or-leave-it” basis, there was no basis for
concluding that the plaintiffs lacked realistic choice as
to the terms of their banking services because they did
not show why they could not have simply opened
accounts with other banks. Id. Similarly, in Pyburn,
the Tennessee Court of Appeals found that an
arbitration agreement between a car dealer and a
purchaser was not adhesive because the purchaser
could have refused to sign and gone to another car
dealership to obtain the vehicle he wanted. 63 S.W.3d
at 360.
Based on these Tennessee cases, the Court finds
that the arbitration provision Bank Services
Agreement, as amended by the 2017 Amendment, is
not a contract of adhesion, because Plaintiffs retained
the choice to open accounts with other banks. Nothing
in the agreement restricted Plaintiffs’ ability to close

63a
their accounts with BB&T and transfer their funds to
accounts with other banks. Instead, by stating that
continued use of their BB&T accounts would
constitute acceptance of the terms, the agreements
left open the option that Plaintiffs could reject the
terms of the agreements—including the arbitration
provisions—by transferring their funds to another
bank. (See Doc. 12-3, at 4; Doc. 12-4, at 2; Doc. 12-5,
at 4.)
Plaintiffs resist this conclusion, contending that
they would have lost the favorable 6.5% interest rate
had they elected to close their accounts. (See Doc. 28,
at 23 (“Plaintiffs’ desire was to enforce their contracts,
not cancel them.”).)
Even if, as Plaintiffs contend, their only recourse
to avoid arbitration was to move their funds to other
banks, they make no allegation that similar rates and
services were not available at other banks. In holding
that certain bank deposit agreements were not
adhesive in Wallace, the Tennessee Supreme Court
stated:
It is common knowledge that the banking
industry is very competitive. For example,
different banks may charge lower fees for
some services and higher fees for other
services, and they also may charge lower
interest rates on loans but higher fees for
services, thus providing choices which may
appeal to various prospective customers. In
the absence of a showing that there was no
effective competition in the providing of
services among the banks in the area served
by the defendants, there is no basis for
concluding that the appellants had no

64a
realistic choice regarding the terms for
obtaining banking services.
938 S.W.2d at 688. Thus, the court’s understanding
of “choice” with regard to banking services
incorporated the fact that different banks provide
services at varying costs. See id. In addition, the
court placed the burden of showing lack of realistic
choice on the plaintiffs. See id. Here, Plaintiffs have
failed to allege a lack of “effective competition” in the
banking services available in Sevier County. Thus,
the Court has no basis to find that Plaintiffs lacked
“realistic choice.”
Furthermore, even assuming no competitor
offered a similar interest rate and Plaintiffs would
have forgone the primary benefit of their agreements
by moving their funds to a competitor, the fact
remains that they took no action for years. There
were other options available. They could have, for
example, sought relief in court in 2001 when the
concept of arbitration was first introduced to them, or
within a reasonable time thereafter. Or they could
have simply expressed disagreement with the
arbitration provisions. They did neither. This lack of
opposition to arbitration so long as the bank continued
to pay the 6.5% interest rate is all the more reason to
conclude that the arbitration provision was not
adhesive. Plaintiffs cannot show that they lacked a
“realistic opportunity to bargain” because they made
no attempt at bargaining or challenging the provision
while they were still receiving the favorable rate. See
Buraczynski, 919 S.W.2d at 320.
Although the Bank Services Agreement and
amendments were standardized forms and offered on
a “take-it-or-leave-it” basis, Plaintiffs have failed to
show that they were offered “under such conditions

65a
that [Plaintiffs] [could not] obtain the desired product
or service except by acquiescing to the form of the
contract,” and are, therefore, not contracts of
adhesion.6 Buraczynski, 919 S.W.2d at 320.

6

Assuming the agreement is adhesive, Plaintiffs argue that
the arbitration provision is unenforceable because it was beyond
their reasonable expectations and is unconscionable. (Doc. 28, at
21.) They contend that they “did not have the opportunity to
revoke or opt out of their contract with impunity” because they
would have lost the 6.5% interest rate had they closed their
accounts and that they were not given the opportunity to opt out
of arbitration “with no adverse effect on their relationship with
BB&T.” (Doc. 28, at 23–24.) Plaintiffs also contend that the
arbitration agreement was outside of their reasonable
expectations because it was buried in the 27-page Bank Services
Agreement and the even longer 2017 Amendment. (Id. at 24–25.)
Though their arguments regarding unconscionability are
couched in the assumption that the arbitration agreement is part
of a contract of adhesion, the Court notes that the agreement
between the parties is not unconscionable because, as previously
stated, Plaintiffs were not denied meaningful choice of banking
services. See Haun v. King, 690 S.W.2d 869, 872 (Tenn. Ct. App.
1984) (“If the provisions are . . . viewed as so one-sided that the
contracting party is denied any opportunity for a meaningful
choice, the contract should be found unconscionable.”). Here, the
terms were not so one-sided as to deprive Plaintiffs of meaningful
choice whether to waive their right to a jury trial. Instead,
Plaintiffs chose to bank with BB&T even after receipt of notice
of these terms, because they enjoyed the benefit of the 6.5%
interest rate.
In addition, the inclusion of a class-action waiver in the
arbitration agreement does not render it unconscionable or
oppressive. See Pyburn, 63 S.W.3d at 365 (holding that the trial
court erred “when it determined that the unavailability of class
action relief in arbitration was a valid basis for not enforcing” the
arbitration agreement”).

66a
B. The Scope of the Parties’ Agreement to
Arbitrate
i.

Who Should Decide the Question of
Arbitrability?

Before determining whether the dispute falls
within the scope of the arbitration agreement, the
Court must first determine who should decide the
threshold question of arbitrability. See Henry Schein,
139 S. Ct. at 527. The Supreme Court has held that
this question itself is a matter of contract. Id. Under
the FAA, it is perfectly permissible for parties “to
agree by contract that an arbitrator, rather than a
court, will resolve threshold arbitrability questions as
well as underlying merits disputes.” Id. (citing RentA-Ctr., 561 U.S. at 68–70; First Options of Chicago,
Inc. v. Kaplan, 514 U.S. 938, 943–44 (1995)). When
parties agree by contract to delegate this threshold
question to the arbitrator, the court must respect that
agreement. Id. at 528; see also id. at 529 (noting that
this “is true even if the court thinks that the argument
that the arbitration agreement applies to a particular
dispute is wholly groundless”).
Still, courts “should not assume the parties agreed
to arbitrate arbitrability unless there is clear and
unmistakable evidence that they did so.” Id. at 531
(quoting First Options, 514 U.S. at 944). The law
reverses the presumption with regard to silence or
ambiguity when the question is who should decide
arbitrability rather than whether a particular issue is
subject to arbitration. First Options, 514 U.S. at 944–
45.
When the question is who should decide
arbitrability, silence and ambiguity militate in favor
of the court deciding the threshold arbitrability
question. Id.; Crossville Med. Oncology, P.C. v.
Glenwood Sys., LLC, 485 F. App’x 821, 823 (6th Cir.

67a
2012). Courts have held that written or otherwise
vocalized objections to the arbitration of arbitrability
show that a party did not clearly and unmistakably
agree to submit the threshold question to the
arbitrator. See First Options, 514 U.S. at 945;
Crossville, 485 F. App’x at 823–24.
Here, the arbitration agreement in the 2017
Amendment states that
Any dispute, claim, controversy or cause of
action, that is filed in any court and that
arises out of or relates to this Agreement or
the breach, termination, enforcement,
interpretation or validity thereof, including
the determination of the scope or applicability
of this agreement to arbitrate, shall be
determined by arbitration . . .
(Doc. 12-5, at 4 (emphasis added).) The agreement is
neither silent nor ambiguous on this issue of who
should decide whether a particular issue falls within
the scope of the agreement—i.e., is arbitrable. (See
id.) Instead, the language is clear that such a
question is itself subject to arbitration. (See id.) In
addition, Plaintiffs have not objected at any point to
the arbitration of the threshold question of
arbitrability. (See generally Doc. 28.) Accordingly, the
Court finds that the parties clearly and unmistakably
agreed to have the arbitrator decide question of
arbitrability, and will refrain from deciding this
question itself.
C. Whether to Stay or Dismiss Plaintiffs’
Claims
The final issue for the Court to resolve is whether
to stay or dismiss Plaintiffs’ claims pending
arbitration. See McGee, 2019 WL 5556756, at *4.

68a
Courts in this circuit have recognized that dismissal,
rather than a stay of proceedings, can be appropriate
when all of the claims in a particular suit will be
referred to arbitration. See Ozormoor v. T-Mobile
USA, Inc., 354 F. App’x 972, 975 (6th Cir. 2009);
Jacobs Field Servs. North Am., Inc. v. Wacker
Polysilicon North Am., LLC, 375 F. Supp. 3d 898, 915
(E.D. Tenn. 2019); Doe #1 v. Déjà vu Consulting, Inc.,
No. 3:17-cv-00040, 2017 WL 3837730, at *17 (M.D.
Tenn. Sept. 1, 2017). Here, all claims and issues are
subject to arbitration, and Plaintiff does not request a
stay of the action rather than dismissal. Therefore,
the Court concludes that dismissal is appropriate.
IV. CONCLUSION
For the reasons stated above,
1. BB&T’s motion to dismiss and compel
arbitration (Doc. 12) will be GRANTED;
2. It will be ORDERED that the parties
proceed to arbitration;
3. This action will be DISMISSED
WITHOUT PREJUDICE; and
4. Plaintiffs’ motion for corrective relief
pursuant to Federal Rule of Civil
Procedure 23(d) (Doc. 42) will be DENIED
AS MOOT.
SO ORDERED.
/s/ Travis R. McDonough
TRAVIS R. MCDONOUGH
UNITED STATES DISTRICT JUDGE

69a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-5174
April 7, 2021
SEVIER COUNTY SCHOOLS
FEDERAL CREDIT UNION;
SUSANNE MUNSON; GEOFFREY
WOLPERT; CHARLES MCGAHA;
CHARLENE MCGAHA; ROBIN
NICHOLS; GREGORY NICHOLS;
REX NICHOLS; SARAH MORRISON,
Plaintiffs-Appellants,
v.
BRANCH BANKING & TRUST
COMPANY,
Defendant-Appellee.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: MOORE, GILMAN, and GRIFFIN,
Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court.* No judge has

*

Judge White recused herself from participation in this
ruling.

70a
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied. Judge Griffin
would grant rehearing for the reasons stated in his
dissent.

ENTERED BY ORDER
OF THE COURT
__/s/ Deborah S. Hunt___
Deborah S. Hunt, Clerk

